No. 20-1541

In The

Supreme Court of the United States
PIVOTAL SOFTWARE, INC., ET AL.,
v.

Petitioners,

SUPERIOR COURT OF CALIFORNIA, CITY AND COUNTY OF SAN FRANCISCO, ET AL.,
Respondents.
ON WRIT OF CERTIORARI TO
THE COURT OF APPEAL FOR THE STATE
OF CALIFORNIA, FIRST APPELLATE DISTRICT
JOINT MOTION TO RECALENDAR ARGUMENT
AND HOLD PROCEEDINGS IN ABEYANCE
Petitioners and respondents respectfully move the Court to remove this case
from the oral argument calendar, suspend the briefing schedule, and hold in abeyance
any further proceedings.1 In support of this motion, the parties jointly state as
follows:
1.

The Court granted certiorari on July 2, 2021. Petitioners filed their

opening brief on August 16, 2021. Respondents’ brief is due on September 15, 2021.
Oral argument is scheduled for November 9, 2021.
2.

On August, 26, 2021, the parties reached an agreement in principle to

settle this case, and the parties are now preparing the settlement documentation.

The Superior Court of California is also a respondent but has not participated
in the proceedings in this Court. All of the remaining respondents, who are the
plaintiffs in the superior court proceedings, join this motion.
1

Because this case is a putative class action, the settlement will be subject to approval
by the Superior Court of California. See Cal. Code Civ. P. § 382.
3.

In the interest of conserving judicial resources, the parties jointly

request that the Court remove the case from the oral argument calendar, suspend all
upcoming briefing deadlines, and hold in abeyance any further proceedings while the
parties take the steps required to obtain settlement approval, including filing
motions, issuing notices, and attending hearings as required.

The parties will

cooperate in an effort to obtain superior court approval. They will provide this Court
with a joint status report every 45 days, or at whatever interval the Court deems
appropriate.
4.

If the settlement becomes final, then the parties will jointly move the

Court for voluntary dismissal of this case under Supreme Court Rule 46.1.
Otherwise, the parties will propose a resumed briefing schedule and ask the Court to
restore the case to the argument calendar.

August 27, 2021
By_____________________________
THOMAS C. GOLDSTEIN
Counsel of Record

Respectfully submitted,
By_____________________________
DEANNE E. MAYNARD
Counsel of Record
2

GOLDSTEIN & RUSSELL. P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tgoldstein@goldsteinrussell.com

JOSEPH R. PALMORE
LENA H. HUGHES
ADAM L. SORENSEN
MORRISON & FOERSTER LLP
2100 L Street, NW
Washington, DC 20037
(202) 887-8740
dmaynard@mofo.com

THOMAS L. LAUGHLIN
JONATHAN M. ZIMMERMAN
SCOTT+SCOTT ATTORNEYS AT
LAW LLP
230 Park Avenue, 17th Floor
New York, NY 10169

JORDAN ETH
MARK R.S. FOSTER
JAMES R. SIGEL
RANDALL ZACK
KAREN LEUNG

MORRISON & FOERSTER LLP

DAVID W. HALL
HEDIN HALL LLP
Four Embarcadero Center
Suite 1400
San Francisco, CA 94104

425 Market Street
San Francisco, CA 94105
Counsel for Petitioners Pivotal
Software, Inc., Robert Mee,
Cynthia Gaylor, Paul Maritz,
Michael Dell, Zane Rowe, Egon
Durban, William D. Green,
Marcy S. Klevorn, and Khozema
Z. Shipchandler
(filed on behalf of and with the
consent of counsel for all
Petitioners)

REED R. KATHREIN
HAGENS BERMAN SOBOL
SHAPIRO LLP
715 Hearst Avenue
Suite 202
Berkeley, CA 94710
STEVE W. BERMAN
HAGENS BERMAN SOBOL
SHAPIRO LLP
1301 Second Avenue
Suite 2000
Seattle, WA 98101

Counsel for Petitioners Continued
Below

Counsel for Respondents
Zhung Tran, Alandra
Mothorpe, and Jason Hill

3

ROMAN MARTINEZ
MELISSA ARBUS SHERRY
ANDREW B. CLUBOK
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Washington, DC 20004
ELIZABETH L. DEELEY
GAVIN M. MASUDA
JOSEPH C. HANSEN
LATHAM & WATKINS LLP
505 Montgomery Street
Suite 2000
San Francisco, CA 94111
Counsel for Petitioners
Morgan Stanley & Co. LLC,
Goldman Sachs & Co. LLC,
Citigroup Global Markets
Inc., Merrill Lynch, Pierce,
Fenner & Smith Inc.,
Barclays Capital Inc.,
Credit Suisse Securities
(USA) LLC, RBC Capital
Markets, LLC, UBS
Securities
LLC, Wells Fargo Securities
LLC, KeyBanc Capital
Markets Inc., William Blair
& Company, L.L.C.,
Mischler Financial Group,
Inc., Samuel A. Ramirez &
Co., Inc., Siebert Cisneros
Shank & Co., LLC, and
Williams Capital Group,
L.P. (the latter two, Siebert
Williams Shank & Co.,
LLC)

4

JOHN L. LATHAM
ANDREW T. SUMNER
ALSTON & BIRD LLP
One Atlantic Center
1201 West Peachtree Street
Suite 4900
Atlanta, GA 30309
GIDON M. CAINE
ALSTON & BIRD LLP
1950 University Avenue
Suite 430
East Palo Alto, CA 94303
Counsel for Petitioner Dell
Technologies Inc.

5

CORPORATE DISCLOSURE STATEMENT

The corporate disclosure statements included in the petition for
a writ of certiorari and the brief in opposition remain accurate for all
parties.

